           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


      ADMINISTRATIVE COSTS
  CLAIMED BY THE NORTH DAKOTA
    DISABILITY DETERMINATION
             SERVICES

  September 2002   A-15-02-12036




 AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

  m Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
  m Promote economy, effectiveness, and efficiency within the agency.
  m Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
  m Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
  m Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

  m Independence to determine what reviews to perform.
  m Access to all information necessary for the reviews.
  m Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                         SOCIAL SECURITY
MEMORANDUM
Date:      September 25, 2002                                                 Refer To:

To:        James C. Everett
           Regional Commissioner
            for Denver

From:      Assistant Inspector General
            for Audit

Subject:    Administrative Costs Claimed by the North Dakota Disability Determination Services
           (A-15-02-12036)


           OBJECTIVES
           Our objectives were to:

           ·   evaluate the adequacy of internal controls over the accounting and reporting of
               administrative costs claimed and the draw down of Social Security Administration
               (SSA) funds at the North Dakota Disability Determination Services (ND-DDS) and
               North Dakota Department of Human Services (ND-DHS) to determine whether the
               controls were sufficient to ensure the proper draw down of funds and accounting and
               reporting of administrative costs;

           ·   determine whether costs claimed on the State Agency Report of Obligations for SSA
               Disability Programs (Form SSA-4513) for the period October 1, 1997 through
               September 30, 2000 were allowable and properly allocated; and

           ·   determine whether the aggregate of the SSA funds drawn down agreed with total
               expenditures reported for disability determinations in Fiscal Years (FY) 1998 through
               2000.

           BACKGROUND
           The Disability Insurance (DI) program provides benefits to wage earners and their
           families in the event the wage earner becomes disabled. The Supplemental Security
           Income (SSI) program is a nationally uniform program that provides income to
           financially needy individuals who are aged, blind and/or disabled. SSA implements the
           general policies governing development of disability claims under the DI and SSI
Page 2 – James C. Everett

programs. A designated agency in each State performs disability determinations
according to Federal regulations. Each agency determines claimants’ disabilities and is
required to maintain adequate evidence to support its determinations. To assist in
making proper disability determinations, SSA authorizes each agency to purchase
medical examinations, x-rays and laboratory tests on a consultative basis to supplement
evidence obtained from the claimants’ physicians or other treating sources.

The designated agency for the State of North Dakota is the ND-DDS, a division within
the ND-DHS. Parent agencies, such as the ND-DHS, often provide administrative
services (such as accounting, purchasing, and personnel) to the State designated
Disability Determination Services (DDS) agency. SSA reimburses each DDS for
100 percent of the allowable expenditures reported quarterly on Form SSA-4513.

SCOPE AND METHODOLOGY
We obtained evidence to evaluate the appropriateness of recorded financial
transactions under the provisions of Office of Management and Budget Circular A-87,
Cost Principles for State, Local and Indian Tribal Governments, and SSA’s Program
Operations Manual System (POMS).

We reviewed $5,240,193 in administrative costs the ND-DHS reported for ND-DDS
operations for the period October 1, 1997 through September 30, 2000. This amount
included costs associated with SSA’s Automation Investment Funds and Information
Technology System funding activities. We also;

·   reviewed applicable Federal regulations and pertinent parts of SSA’s POMS, section
    DI 39500, DDS Fiscal and Administrative Management;

·   interviewed ND-DHS and ND-DDS staff;

·   documented our understanding of the ND-DHS’s and ND-DDS’s systems of internal
    controls over the accounting and reporting of administrative costs;

·   evaluated and tested internal controls regarding accounting and financial reporting;

·   traced the administrative expenditures ND-DHS reported on Forms SSA-4513 to its
    accounting records;

·   documented our understanding of the ND-DHS’s procedures and internal controls
    for drawing down SSA funds;

·   analyzed ND-DHS draw downs of SSA funds and reconciled them with reported
    expenditures;
    Page 3 -James    C. Everett

       reviewed the North Dakota State auditors' Single Audit reports and related working
       papers as they were related to indirect costs for the period July 1, 1996 through
       June 30, 2000; and

       conducted a physical inventory of equipment items ND-DHS purchased during our
       audit period and selected computer hardware items SSA provided to NO-DDS.

    We performed work at the ND-DHS, NO-DDS and the North Dakota State auditors'
    office in Bismark, North Dakota. We conducted our audit from October 2001 through
    June 2002 in accordance with generally accepted government auditing standards.


    RESULTS OF REVIEW AND CONCLUSION

    Based on our examination of accounting practices and procedures, and sampling of
    financial transactions for the period under audit, we concluded that the NO-DDS and
    ND-DHS complied with laws, regulations, policies and procedures governing
    expenditures and obligations incurred for SSA's Disability program for FYs 1998
    through 2000. Specifically, we concluded that ND-DHS and NO-DDS had adequate
    internal controls over accounting and reporting of administrative costs and draw downs
    of SSA funds for the period under review. Tests of the amounts the ND-DHS reported
    on Forms SSA-4513 provided reasonable assurance that the ND-DHS had accurately
    reported the administrative costs NO-DDS incurred for disability determination activities
    during our audit period. Our tests of NO-DOS's claimed costs also showed that there
    were no material instances of noncompliance regarding whether sampled expenditures
    were allowable and allocable. We also did not identify cumulative draw downs that
    exceeded cumulative disbursements during our audit period.




                                                             u.l~lJ)~
                                                    StevenL. SChae~C!)




.
~
Appendix
                                                                         Appendix

OIG Contacts and Staff Acknowledgments

OIG Contacts

     Frederick C. Nordhoff, Director, Financial Audits, (410) 966-6676

     Carl Markowitz, Deputy Director, Financial Audits, (410) 965-9742


Acknowledgments
In addition to those named above:

     Sigmund Wisowaty, Senior Auditor

     Donna Parris, Auditor


For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact Office of the Inspector General’s Public Affairs Specialist at (410) 966-1375.
Refer to Common Identification Number A-15-02-12036.
                           DISTRIBUTION SCHEDULE

                                                                             No. of
                                                                            Copies

Commissioner of Social Security                                                1
Management Analysis and Audit Program Support Staff, OFAM                     10
Inspector General                                                              1
Assistant Inspector General for Investigations                                 1
Assistant Inspector General for Executive Operations                           3
Assistant Inspector General for Audit                                          1
Deputy Assistant Inspector General for Audit                                   1
 Director, Systems Audit Division                                              1
 Director, Financial Management and Performance Monitoring Audit Division      1
 Director, Operational Audit Division                                          1
 Director, Disability Program Audit Division                                   1
 Director, Program Benefits Audit Division                                     1
 Director, General Management Audit Division                                   1
Team Leaders                                                                  25
Income Maintenance Branch, Office of Management and Budget                     1
Chairman, Committee on Ways and Means                                          1
Ranking Minority Member, Committee on Ways and Means                           1
Chief of Staff, Committee on Ways and Means                                    1
Chairman, Subcommittee on Social Security                                      2
Ranking Minority Member, Subcommittee on Social Security                       1
Majority Staff Director, Subcommittee on Social Security                       2
Minority Staff Director, Subcommittee on Social Security                       2
Chairman, Subcommittee on Human Resources                                      1
Ranking Minority Member, Subcommittee on Human Resources                       1
Chairman, Committee on Budget, House of Representatives                        1
Ranking Minority Member, Committee on Budget, House of Representatives         1
Chairman, Committee on Government Reform and Oversight                         1
Ranking Minority Member, Committee on Government Reform and Oversight          1
Chairman, Committee on Governmental Affairs                                    1
Ranking Minority Member, Committee on Governmental Affairs                   1
Chairman, Committee on Appropriations, House of Representatives              1
Ranking Minority Member, Committee on Appropriations,
 House of Representatives                                                        1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations,
 House of Representatives                                                    1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 House of Representatives                                                    1
Chairman, Committee on Appropriations, U.S. Senate                           1
Ranking Minority Member, Committee on Appropriations, U.S. Senate            1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations, U.S. Senate              1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 U.S. Senate                                                                 1
Chairman, Committee on Finance                                               1
Ranking Minority Member, Committee on Finance                                1
Chairman, Subcommittee on Social Security and Family Policy                  1
Ranking Minority Member, Subcommittee on Social Security and Family Policy   1
Chairman, Senate Special Committee on Aging                                  1
Ranking Minority Member, Senate Special Committee on Aging                   1
President, National Council of Social Security Management Associations,
  Incorporated                                                               1
Treasurer, National Council of Social Security Management Associations,
  Incorporated                                                               1
Social Security Advisory Board                                               1
AFGE General Committee                                                       9
President, Federal Managers Association                                      1
Regional Public Affairs Officer                                              1


Total                                                                            96
                   Overview of the Office of the Inspector General


                                            Office of Audit
The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure that
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers' Act of 1990, assess whether SSA’s financial statements fairly present
the Agency’s financial position, results of operations and cash flow. Performance audits review
the economy, efficiency and effectiveness of SSA’s programs. OA also conducts short-term
management and program evaluations focused on issues of concern to SSA, Congress and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency, rather than detecting problems after they occur.

                                   Office of Executive Operations
The Office of Executive Operations (OEO) supports the Office of the Inspector General (OIG)
by providing information resource management; systems security; and the coordination of
budget, procurement, telecommunications, facilities and equipment, and human resources. In
addition, this office is the focal point for the OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act. OEO is also responsible for performing internal reviews to ensure
that OIG offices nationwide hold themselves to the same rigorous standards that we expect from
SSA, as well as conducting investigations of OIG employees, when necessary. Finally, OEO
administers OIG’s public affairs, media, and interagency activities, coordinates responses to
Congressional requests for information, and also communicates OIG’s planned and current
activities and their results to the Commissioner and Congress.


                                  Office of Investigations
The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud,
waste, abuse, and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees, third
parties, and by SSA employees in the performance of their duties. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.

                            Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: 1) statutes, regulations, legislation, and policy directives
governing the administration of SSA’s programs; 2) investigative procedures and techniques;
and 3) legal implications and conclusions to be drawn from audit and investigative material
produced by the OIG. The Counsel’s office also administers the civil monetary penalty program.
